=
I

CQCKLE

2311 Douglas Street L l Brief E-Mail Address:
a a riers
Omaha, Nebraska 68102-1214 c& Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-637

DARRELL HEMPHILL,
Petitioner.
v.
STATE OF NEW YORK,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 16th day of August, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the MOTION FOR LEAVE TO FILE BRIEF AS AMICUS CURIAE
AND AMICUS BRIEF OF ADAM OUSTATCHER IN SUPPORT OF RESPONDENT in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
Adam Oustatcher, Esq.
55 Broadway
Suite 202
New York, New York 10006
(917) 881-9307
aoustatcher@gmail.com

Subscribed and sworn to before me this 16th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska d / ue Chby
RENEE J. GOSS s

My Comm. Exp, September 5, 2023

 

 

Notary Public Affiant 41087
Jeffrey L. Fisher

Stanford Law School Supreme Court Clinic
Attorney for Petitioner

559 Nathan Abbott Way

Stanford, CA 94305

650-724-7081

Jlfisher@law.stanford.edu

Gina Mignola

Office of the Bronx District Attorney
Attorney for Respondent

198 East 161 Street

Bronx, NY 10451

718-838-7199

mignolag@bronxda.nyc.gov
